           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        DEDICATED ACCOUNT
      UNDERPAYMENTS PAYABLE
           TO CHILDREN

    November 2010   A-09-09-29110




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      November 10, 2010                                                                     Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Dedicated Account Underpayments Payable to Children (A-09-09-29110)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA) had
           adequate controls to ensure Supplemental Security Income (SSI) recipients were paid
           dedicated account funds.

           BACKGROUND
           SSA administers the SSI program under Title XVI of the Social Security Act. This
           program provides payments to individuals who have limited income and resources and
           are age 65 or older, blind, or disabled. 1

           Some individuals cannot manage or direct the management of their finances because of
           their youth or mental and/or physical impairments. Congress granted SSA the authority
           to appoint representative payees to receive and manage these beneficiaries’ payments.
           A representative payee may be an individual or an organization. SSA selects
           representative payees for SSI recipients when representative payment would serve the
           individual’s interests.2

           The Social Security Act requires that representative payees establish and maintain
           separate dedicated accounts in a financial institution for certain large, past-due
           payments 3 for SSI recipients under age 18. Generally, this applies to any past-due
           payments that are more than six times the SSI Federal benefit amount, including any
           State supplement paid by SSA. Representative payees must establish these accounts
           1
               Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
           2
            The Social Security Act, §§ 205(j), 1631(a)(2); 42 U.S.C. §§ 405(j), 1383(a)(2); see also 20 C.F.R.
           §§ 404.2001 et.seq, 416.601 et.seq.
           3
            Past-due payments (also referred to as underpayments) are benefits payable to SSI recipients. For
           example, SSA may determine that a recipient was eligible for a prior period in which the recipient was not
           paid.
Page 2 - The Commissioner

before SSA releases the past-due payments. 4 The accounts must be separate from
other savings or checking accounts into which regular monthly SSI payments are
deposited. 5

Representative payees may only use funds deposited into these accounts for such
expenses as education or job skills training, medical treatment, or certain other
expenses provided they are related to a child's impairment. 6 If a representative payee
does not establish a dedicated account, SSA will not release the past-due payments
and may need to determine whether it should select a new representative payee. 7

For our review, we identified 12,881 dedicated account underpayments totaling $66.1
million recorded on the Supplemental Security Record (SSR) as of January 2009.

RESULTS OF REVIEW
SSA needs to improve controls to ensure it pays dedicated account underpayments to
representative payees for the children in their care. Based on a random sample of
275 underpayments, we estimate that SSA had not paid about 7,775 underpayments
totaling approximately $35 million (see Appendix C). This included 3 organizational
representative payees who did not establish dedicated accounts for $367,612 in
underpayments for 47 children. Generally, these funds were not paid because SSA did
not have adequate controls to ensure that representative payees established dedicated
accounts. In addition, SSA staff did not

•     notify representative payees about the existence of underpayments that required the
      establishment of dedicated accounts or

•     adequately control the issuance of underpayments after dedicated accounts were
      established.

DEDICATED FUNDS WERE NOT PAID

Based on a random sample of 275 underpayments, we found SSA did not pay
166 (60 percent) underpayments totaling $746,726 in dedicated funds:

•     71 were not paid to representative payees for children who were receiving SSI, and




4
    The Social Security Act § 1631(a)(2)(F); 42 U.S.C. § 1383(a)(F).
5
    SSA, Program Operations Manual System (POMS), GN 00602.140.B.1.
6
    The Social Security Act § 1631(a)(2)(F); 42 U.S.C. § 1383(a)(F).
7
    SSA, POMS, SI 02101.010.A.1.
Page 3 - The Commissioner

•   95 were not paid to representative payees for children whose SSI payments had
    been suspended or terminated. 8

Our sample results are summarized below.


                       Dedicated Funds Payable to Children
                                                                      95 Not Paid to
                                                                    Children Whose SSI
                                                                     Payments Were
                                                                      Suspended or
                                                                        Terminated
                                                                          (34.5%)




             109 Non
              Errors                                                         71 Not Paid to
             (39.6%)                                                          Children Who
                                                                          Currently Receive SSI
                                                                                 (25.8%)




Procedures and Controls for Paying Dedicated Funds

When SSA identifies underpayments that require a dedicated account, it notifies the
child’s representative payee about the underpayment and the steps necessary to
receive the funds. After the representative payee informs SSA that a dedicated bank
account has been established and provided SSA the account information, SSA will
deposit the funds into the account. Generally, SSA issues these dedicated funds in
installments (each installment is paid at 6-month intervals for a maximum of three
payments).




8
  For 58 of these underpayments, the recipients had more than 1 period of SSI eligibility or had reapplied
for SSI after their payments were terminated.
Page 4 - The Commissioner

SSA has controls to remind staff to pay dedicated funds. This includes a follow-up diary
that is established when SSA sends a notice to a representative payee about the
requirement to establish a dedicated account. At the end of 30 days, if the
representative payee has not established an account, an alert is generated to SSA staff
to take appropriate follow-up action. Additional follow-up alerts are generated every
15 days until payment is made to a dedicated account. When dedicated funds are paid
by installments, an alert is generated 6 months after an installment payment was made
to remind SSA staff the next payment is due. Additional follow-up alerts are generated
every 15 days until the installment is paid.

Dedicated Funds for Children Receiving SSI

Our review disclosed that SSA did not pay 71 (25.8 percent) of the 275 underpayments
in our sample to representative payees for children who were receiving SSI. This
occurred because SSA did not have adequate controls to ensure that representative
payees established dedicated accounts. In addition, SSA staff did not notify
representative payees about the existence of underpayments that required the
establishment of dedicated accounts or adequately control the issuance of installment
payments. As a result, SSA did not pay $323,182 in underpayments to representative
payees of 71 children.

We found that the 71 underpayments had not been paid for an average of 22.7 months
(about 1.9 years). 9 SSA had not made any payments for 51 of the 71 underpayments.
This included six underpayments where SSA staff did not notify the children’s
representative payees of the underpayment and the requirement to establish a
dedicated account. For the remaining 20 underpayments, SSA had made at least
1 installment payment, but subsequent installment payments were not made.

For example, in June 2007, SSA notified a child’s representative payee that $4,248 in
dedicated funds was payable to the child. In June 2008, SSA appointed another
representative payee for the child. However, SSA staff did not notify the new
representative payee that dedicated funds were payable to the child and the steps
required to establish a dedicated account to receive these funds. As of April 2010, the
representative payee had not been paid.

In October 2002, SSA notified a child’s representative payee (the mother) that $4,611 in
dedicated funds was payable to the child. SSA staff sent a second notice to the mother
in June 2006 regarding the dedicated funds and the steps necessary to receive the
funds. Although SSA’s records indicate a dedicated account was established, SSA had
not paid the $4,611 as of April 2010.




9
    The length of time for the 71 unpaid underpayments ranged from 1 to 83 months.
Page 5 - The Commissioner

Dedicated Funds for Children Whose SSI Payments Had Been Suspended or
Terminated

SSI payments may be suspended for any month in which an individual does not meet
the eligibility requirements. For example, if a recipient has excess income or resources,
SSA will suspend payments. In addition, if there is a 12-month period of suspension,
SSI payments are generally terminated, and the individual must file a new application to
reestablish eligibility for SSI. When this occurs, SSA will establish a new SSI record for
the subsequent application or period of eligibility.

Dedicated account underpayments are usually still payable when a child’s SSI
payments are suspended or terminated. However, when this occurs, SSA staff must
establish manual controls to ensure it sends notices to the representative payees and
issues the underpayments after a dedicated account has been established. 10

Our review found that SSA did not pay 95 (34.5 percent) of the 275 underpayments in
our sample to representative payees for children whose SSI payments had been
suspended or terminated:

•     70 underpayments for children whose SSI payments had been terminated,

•     21 underpayments for children whose SSI payments had been suspended, and

•     4 underpayments payable to the parents of deceased children.

The dedicated funds were not paid primarily because the children’s representative
payees had not established dedicated accounts. In addition, SSA staff did not manually
control the issuance of the underpayments after the children’s SSI payments were
suspended or terminated. As a result, SSA did not pay $423,544 in underpayments to
the representative payees of 95 children.

    Children Whose SSI Payments Were Terminated – We found that 70 of the
95 underpayments were payable to children whose SSI payments had been terminated.
We determined that the 70 underpayments had not been paid for an average of
60.7 months (about 5.1 years). 11 In total, SSA did not pay $294,563 in underpayments
to the representative payees of 70 children.

For 44 of the 70 children, SSA did not pay any of the underpayments before their SSI
payments were terminated. For the remaining 26 underpayments, SSA staff had made
at least 1 installment payment before the children’s payments were terminated. For
64 of the children, the systems diaries that generate alerts to remind SSA staff that a
dedicated account needs to be established or the next installment is due were removed.

10
     SSA, POMS, SI 02101.020-C.9, D.2, and D.3.
11
     The length of time for the 70 unpaid underpayments ranged from 2 to 131 months.
Page 6 - The Commissioner

We found that 57 of the 70 underpayments were for children who had (1) more than
1 period of SSI eligibility or had reapplied for SSI after their payments were terminated,
and (2) an underpayment on a prior SSI record. Consequently, SSA had an opportunity
to resolve these underpayments during the subsequent eligibility period or SSI
application.

For example, in June 2007, SSA notified a child’s representative payee that $6,296 in
dedicated funds was payable to the child. SSA made one payment of $1,869 to the
dedicated account in July 2007. After this payment was made, the child’s payments
were terminated in August 2007. SSA subsequently determined the child was eligible
for SSI and established a new record for the child. However, the diary that generates
alerts to remind SSA staff that the next installment is due was removed. In addition,
SSA staff did not manually control this underpayment to ensure it was paid in January
2008, 6 months after the first installment. As a result, SSA did not pay the remaining
$4,427.

    Children Whose SSI Payments Were Suspended – We found that 21 of the
95 underpayments were payable to children who had their SSI payments suspended.
We determined that the 21 underpayments had not been paid for an average of
40.4 months (about 3.4 years). 12 This included (1) four underpayments where SSA did
not notify the representative payees about the underpayments and the requirement to
establish a dedicated account and (2) five underpayments where SSA made one
installment payment before the children’s payments were suspended. As a result, SSA
did not pay $109,359 in underpayments to the representative payees of 21 children.

Although SSI payments were suspended for these children, alerts were generated every
15 days to remind SSA staff that dedicated funds were payable to the children.
However, SSA staff did not take appropriate action to send the required notices to the
representative payees or to issue the payments.

For example, in August 2006, SSA paid a representative payee $4,712 of the $7,431 in
dedicated funds payable to a child. In November 2006, SSA suspended the child’s SSI
payments because she received income that made her ineligible. Generally, SSA policy
requires that its staff issue the scheduled installment payment to the representative
payee if a child’s regular payments are suspended during the installment process.13
However, SSA staff did not take appropriate action to issue the child’s remaining
$2,719 underpayment to the representative payee.




12
     The length of time for the 21 unpaid underpayments ranged from 12 to 117 months.
13
     SSA, POMS, SI 02101.010.A.10.
Page 7 - The Commissioner

    Deceased Children – We found that 4 of the 95 underpayments were for deceased
children. The dedicated funds were not paid while the children were alive because the
children’s representative payees had not established a dedicated account. These
children died from 3 to 38 months after their representative payees were notified of the
underpayments. As a result, SSA did not pay $19,622 in underpayments to the
representative payees of four children.

According to SSA’s policy, a parent can be paid the amount that was due a deceased
child if the child was living in the same household with the parent within 6 months
preceding the month of death. 14 According to SSA’s records, these children lived with a
parent at the time of their death. Therefore, the parents of these children should have
been paid the $19,622 in underpayments.

ORGANIZATIONAL REP RES ENTATIVE P AYEES WITHOUT DEDICATED
ACCOUNTS

During our review, we identified three large organizational representative payees that
had not established dedicated accounts for the children in their care. The three
representative payees are government agencies in California; New Jersey; and
Washington, D.C., that care for children in foster care or who have developmental
disabilities. These organizations serve as representative payees for about
4,800 children and have not established dedicated accounts since this requirement
became effective in August 1996. According to SSA’s records, $367,612 in
underpayments was payable to 47 children in the care of these 3 representative
payees. As a result of our review, SSA stated it would take appropriate actions to
ensure the representative payees establish dedicated accounts.

CONCLUSION AND RECOMMENDATIONS
SSA did not always ensure it paid dedicated account underpayments to representative
payees for the children in their care. Based on a random sample of 275 underpayments,
we estimate that SSA did not pay about 7,775 underpayments totaling approximately
$35 million. Generally, this occurred because SSA did not have adequate controls to
ensure that representative payees established dedicated accounts. In addition, SSA staff
did not notify representative payees about the existence of underpayments that required
the establishment of dedicated accounts or adequately control the issuance of installment
payments.

Finally, we found that three organizational representative payees had not established
dedicated accounts for the children in their care. As a result, SSA had not paid
$367,612 in dedicated funds to 47 children.




14
     SSA, POMS, SI 02101.007.A.1.
Page 8 - The Commissioner

We recommend that SSA:

1. Take corrective action to resolve and pay as appropriate the 166 underpayments
   identified by our audit.

2. Identify and take corrective action on the population of SSI recipients who have
   dedicated account underpayments.

3. Remind employees to ensure they (a) notify representative payees of any
   underpayments that require the establishment of a dedicated account, (b) control for
   the issuance of initial and installment payments after a dedicated account has been
   established, and (c) review prior SSI records to identify any unpaid dedicated funds.

4. Determine whether additional controls should be established to ensure dedicated
   funds are properly paid.

5. Take appropriate actions for the three organizational representative payees
   identified by our audit that had not established dedicated accounts.

AGENCY COMMENTS
SSA agreed with all our recommendations. The Agency’s comments are included in
Appendix D.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                          Appendix A

Acronyms
OIG    Office of the Inspector General
POMS   Program Operations Manual System
SSA    Social Security Administration
SSI    Supplemental Security Income
SSR    Supplemental Security Record
                                                                            Appendix B

Scope and Methodology
We obtained a data extract from the Social Security Administration’s (SSA)
Supplemental Security Record (SSR). This extract contained all dedicated account
underpayments as of January 2009. 1 We refined this population by removing any
underpayments for which SSA had begun paying the recipient. This resulted in a
population of 12,881 underpayments totaling $66.1 million. This included
6,818 underpayments for children who were receiving Supplemental Security Income
(SSI) payments, 4,521 for children whose SSI payments had been terminated, and
1,542 for children whose SSI payments had been suspended. From this population, we
randomly selected a sample of 275 underpayments for review.

To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act, Federal regulations, and
    SSA’s Program Operations Manual System (POMS);

•   interviewed SSA employees from the Western Program Service Center and Office of
    Income Security Programs;

•   selected a random sample of 275 underpayments; and

•   reviewed queries from SSA’s SSR for each sample item to determine whether SSA
    had paid the dedicated funds or had started installment payments as of December
    2009.

We also obtained information from 9 SSA Regional Offices regarding whether
13 organizational representative payees had established dedicated accounts for the SSI
recipients in their care.

We determined the computer-processed data from the SSR were sufficiently reliable for
our intended use. We conducted tests to determine the completeness and accuracy of
the data. These tests allowed us to assess the reliability of the data and achieve our
audit objectives.

We evaluated the adequacy of SSA’s controls to ensure SSI recipients are paid
dedicated account funds. This included a determination of whether SSA’s diary and
alert procedures and the instructions for the manual processes properly controlled and
resolved the underpayments.


1
  These underpayments were established between August 1996, when the dedicated account
requirements became effective, and January 2009.


                                               B-1
We performed our audit in Richmond, California, between December 2009 and
May 2010. The entities reviewed were the Offices of the Deputy Commissioners for
Operations and Systems.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                           B-2
                                                                                Appendix C

Sampling Methodology and Results
From the Social Security Administration’s (SSA) Supplemental Security Record (SSR),
we identified all dedicated account underpayments as of January 2009. 1 We refined
this population by removing any underpayments in which SSA had begun paying the
recipient. This resulted in a population of 12,881 underpayments, totaling $66.1 million,
on SSRs that had (1) a diary showing that SSA was waiting for the representative payee
to open a separate bank account before a payment could be made or (2) no diary
because the SSRs had been terminated. The 12,881 underpayments consisted of
6,818 for children who were receiving SSI payments, 4,521 for children whose SSI
payments had been terminated, and 1,542 for children whose SSI payments had been
suspended. We randomly selected a sample of 275 underpayments and reviewed the
SSRs to determine whether SSA had paid the dedicated funds or had started
installment payments as of December 2009.

Of the 275 underpayments in our sample, we found that SSA had not paid
166 underpayments totaling $746,726 in dedicated funds. Projecting these results to
our population of 12,881 underpayments, we estimate that SSA had not paid about
7,775 underpayments totaling approximately $35 million in dedicated funds. The
following tables provide the details of our sample results and statistical projections.

Table 1 – Population and Sample Size

                  Description                                        Number of Records
    Population Size                                                       12,881
    Sample Size                                                              275

Table 2 – Statistical Projections

                                                           Number
                  Description                             of Records          Underpayments
    Sample Results                                              166               $746,726
    Point Estimate                                            7,775            $34,976,646
    Projection - Lower Limit                                  7,126            $30,850,862
    Projection - Upper Limit                                  8,404            $39,102,430
Note: All statistical projections are at the 90-percent confidence level.




1
  These underpayments were established between August 1996, when the dedicated account
requirements became effective, and January 2009.
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      October 25, 2010                                                       Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor
           to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Dedicated Account Underpayments
           Payable to Children” (A-09-09-29110)--INFORMATION


           Thank you for the opportunity to review the subject report. Please see our attached response to
           the report recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at (410) 966-6975.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “DEDICATED ACCOUNT UNDERPAYMENTS PAYABLE TO CHILDREN”
(A-09-09-29110)

We offer the following responses to your recommendations.

Recommendation 1

Take corrective action to resolve and pay as appropriate the 166 underpayments identified by our
audit.

Response

We agree. We are taking actions to resolve the 166 Supplemental Security Income (SSI) cases.

Recommendation 2

Identify and take corrective action on the population of SSI recipients who have dedicated
account underpayments.

Response

We agree. We may already be taking action independent of this audit on some of these cases.
To avoid duplicating our efforts, we will initially identify and take corrective actions for the
population of SSI recipients who have dedicated account underpayments pending for more than
one year. We expect to complete our actions by the end of July 2011.

Recommendation 3

Remind employees to ensure they: a) notify representative payees of any underpayments that
require the establishment of a dedicated account; b) control for the issuance of initial and
installment payments after a dedicated account has been established; and c) review prior SSI
records to identify any unpaid dedicated funds.

Response

We agree. We will issue a policy reminder as you suggest by the end of December 2010.

Recommendation 4

Determine whether additional controls should be established to ensure dedicated funds are
properly paid.

Response

We agree. We will accept your recommendation, and by the end of December 2010, we will
determine whether we should establish additional controls for dedicated accounts.
                                               D-2
Recommendation 5

Take appropriate actions for the three organizational representative payees identified by our audit
who have not established dedicated accounts.

Response

We agree. We are working with the organizational representative payees you identified. We
expect to have dedicated accounts established by no later than December 2010.




                                               D-3
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Joseph Robleto, Audit Manager

Acknowledgments

In addition to those named above:

   James Sippel, Senior Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-09-29110.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
